<html>
<title> - [H.A.S.C. No. 114-95] HEARING ON NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2017 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED FOURTEENTH CONGRESS SECOND SESSION</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





                               
 
                         [H.A.S.C. No. 114-95]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2017

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

       SUBCOMMITTEE ON EMERGING THREATS AND CAPABILITIES HEARING

                                   ON

                   DEPARTMENT OF DEFENSE FISCAL YEAR

                      2017 SCIENCE AND TECHNOLOGY

                    PROGRAMS: DEFENSE INNOVATION TO

                    CREATE THE FUTURE MILITARY FORCE

                               __________

                              HEARING HELD
                           FEBRUARY 24, 2016

                                     
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





                            _________ 

                 U.S. GOVERNMENT PUBLISHING OFFICE
                   
 99-626                   WASHINGTON : 2016       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001     








                                     
  


           SUBCOMMITTEE ON EMERGING THREATS AND CAPABILITIES

                  JOE WILSON, South Carolina, Chairman

JOHN KLINE, Minnesota                JAMES R. LANGEVIN, Rhode Island
BILL SHUSTER, Pennsylvania           JIM COOPER, Tennessee
DUNCAN HUNTER, California            JOHN GARAMENDI, California
RICHARD B. NUGENT, Florida           JOAQUIN CASTRO, Texas
RYAN K. ZINKE, Montana               MARC A. VEASEY, Texas
TRENT FRANKS, Arizona, Vice Chair    DONALD NORCROSS, New Jersey
DOUG LAMBORN, Colorado               BRAD ASHFORD, Nebraska
MO BROOKS, Alabama                   PETE AGUILAR, California
BRADLEY BYRNE, Alabama
ELISE M. STEFANIK, New York
                 Kevin Gates, Professional Staff Member
              Lindsay Kavanaugh, Professional Staff Member
                          Neve Schadler, Clerk
                          
                          
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Langevin, Hon. James R., a Representative from Rhode Island, 
  Ranking Member, Subcommittee on Emerging Threats and 
  Capabilities...................................................     2
Wilson, Hon. Joe, a Representative from South Carolina, Chairman, 
  Subcommittee on Emerging Threats and Capabilities..............     1

                               WITNESSES

Miller, Mary J., Deputy Assistant Secretary of the Army for 
  Research and Technology, Office of the Assistant Secretary of 
  the Army for Acquisition, Logistics and Technology.............     6
Prabhakar, Dr. Arati, Director, Defense Advanced Research 
  Projects Agency (DARPA)........................................    12
Walker, Dr. David E., Deputy Assistant Secretary of the Air Force 
  for Science, Technology and Engineering, Office of the 
  Assistant Secretary of the Air Force for Acquisition...........    10
Welby, Stephen, Assistant Secretary of Defense for Research and 
  Engineering, Office of the Under Secretary of Defense for 
  Acquisition, Technology and Logistics..........................     3
Winter, RADM Mathias W., USN, Chief of Naval Research and 
  Director, Innovation Technology Requirements, and Test and 
  Evaluation (N84)...............................................     8

                                APPENDIX

Prepared Statements:

    Miller, Mary J...............................................    46
    Prabhakar, Dr. Arati.........................................   126
    Walker, Dr. David E..........................................    86
    Welby, Stephen...............................................    32
    Wilson, Hon. Joe.............................................    31
    Winter, RADM Mathias W.......................................    66

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Castro...................................................   158
    Mr. Langevin.................................................   155
    Mr. Nugent...................................................   157
    Mr. Wilson...................................................   153
    
DEPARTMENT OF DEFENSE FISCAL YEAR 2017 SCIENCE AND TECHNOLOGY PROGRAMS: 
         DEFENSE INNOVATION TO CREATE THE FUTURE MILITARY FORCE

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
         Subcommittee on Emerging Threats and Capabilities,
                      Washington, DC, Wednesday, February 24, 2016.
    The subcommittee met, pursuant to call, at 2:09 p.m., in 
room 2212, Rayburn House Office Building, Hon. Joe Wilson 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. JOE WILSON, A REPRESENTATIVE FROM 
SOUTH CAROLINA, CHAIRMAN, SUBCOMMITTEE ON EMERGING THREATS AND 
                          CAPABILITIES

    Mr. Wilson. Ladies and gentleman, I would like to call this 
hearing of the Emerging Threats and Capabilities Subcommittee 
of the House Armed Services Committee to order. I am pleased to 
welcome everyone here today for this hearing on fiscal year 
2017 budget requests for science and technology [S&T] programs 
within the Department of Defense. In a recent speech, Secretary 
of Defense Ash Carter spoke about the return of great power 
competition and the need to deter our most advanced 
competitors. We can only deter these competitors and 
adversaries when the Department of Defense [DOD] harnesses 
innovation and creates new capabilities for the military that 
will maintain and expand our technical superiority, now and 
into the future to achieve peace through strength.
    The budget request is a good step in tackling the 
modernization challenges of the Department. Activities like the 
third offset strategy and the long-range research and 
development plan are important to charting a course that takes 
a strategic view of the security environment. However, I remain 
concerned that it is too little too late. As I see it, starting 
major initiatives at the end of an administration makes it 
difficult to ensure that these programs will survive the new 
budgetary and policy priorities that will naturally arise with 
a new President. I hope I am wrong, since I support many of the 
things being proposed in this budget request, but only time 
will tell.
    I would like to welcome our distinguished panel of 
witnesses, and appreciate their perspectives on all of these 
issues. This panel includes Mr. Stephen Welby, Assistant 
Secretary of Defense for Research and Engineering; Ms. Mary 
Miller, Deputy Assistant Secretary of the Army for Research and 
Technology; Rear Admiral Matt Winter, U.S. Navy, Chief of Naval 
Research; Dr. David Walker, Deputy Assistant Secretary of the 
Air Force for Science, Technology, and Engineering; and Dr. 
Arati Prabhakar, the Director of Defense Advanced Research 
Projects Agency [DARPA].
    I would like now to turn to my friend and ranking member, 
Mr. Jim Langevin, of Rhode Island for any comments he would 
like to make.
    [The prepared statement of Mr. Wilson can be found in the 
Appendix on page 31.]

  STATEMENT OF HON. JAMES R. LANGEVIN, A REPRESENTATIVE FROM 
RHODE ISLAND, RANKING MEMBER, SUBCOMMITTEE ON EMERGING THREATS 
                        AND CAPABILITIES

    Mr. Langevin. Well, thank you, Mr. Chairman. And I want to 
thank you too--thanks to our distinguished witnesses for 
appearing before the subcommittee to address the Department of 
Defense science and technology policy and programs hearing for 
fiscal year 2017. Our S&T investments have been instrumental in 
delivering the capabilities necessary to address the threats 
that we have faced for more than a decade and a half from our 
enemies, like Al Qaeda and other terrorist organizations that 
seek to do us harm. Investments in S&T have also resulted in 
the very best protection for our troops from improvised 
explosive devices and other combat casualties. As long as our 
forces are still facing these adversaries, we must continue to 
invest in tools that could rapidly deliver the edge required 
for today's combat, while working to decrease technological 
surprise and maintain our edge against those threats on the 
horizon and beyond. Maintaining our technological edge is a 
priority for the House Armed Services Committee, and especially 
for this subcommittee.
    As state actors continue to develop capabilities and 
leverage the latest technology, and non-state actors like ISIL 
[Islamic State of Iraq and the Levant] present new challenges 
to our information operations, it is imperative that the 
Department of Defense capitalize on the most cutting-edge 
technology and spur innovation for required capabilities. Doing 
so, however, requires more than just money. It requires the DOD 
to build lasting dynamic relationships with industry and 
academia while utilizing its in-house capability to the maximum 
extent possible.
    The Department must also foster new relationships with 
nontraditional DOD partners. In the last 2 years, the 
Department has initiated two programs, DIUx [Defense Innovation 
Unit Experimental] and In-Q-Tel, intended to strengthen its 
collaboration with tech firms, entrepreneurs, and start-ups.
    In-Q-Tel has a proven track record with the intelligence 
community and has the potential to bring the same success to 
DOD. DIUx seems to be a mechanism for relationship building, 
but it remains unclear to me exactly what their role is, and 
how they are interfacing with transition offices, program 
managers, and others in the existing S&T and acquisition 
communities.
    While I support efforts to access and harness new 
technologies, I want to ensure the Department is fully 
leveraging its existing toolbox, like small business innovation 
programs, rapid innovation funds, transition offices, and 
prototyping accounts in place. I would appreciate hearing the 
witnesses' views and understanding of these mechanisms.
    Innovation also requires the Department to be able to 
recruit and retain a talented workforce. I believe the 
Department's workforce is a critical element in maintaining our 
technological edge, and I look forward to hearing from our 
witnesses about what they may need as it pertains to current 
hiring authority modifications, or new authorities to ensure 
that we are investing in the very best and brightest minds 
available.
    Another essential element in maintaining our technological 
edge is the Department's in-house infrastructure. DOD labs are 
a national asset; yet, the 2017 budget remains void of 
investment in physical facilities. The subcommittee has 
attempted to address the lack of military construction funds 
for labs by providing limited authority to use RDT&E [research, 
development, test, and evaluation] funds. But today, I hope to 
hear about infrastructure investment requirements and continue 
a dialogue about how those requirements can be met.
    With that, I just want to thank all of the witnesses for 
being here today. I appreciate the work that you are doing in 
very cutting-edge fields. You are all involved in investing in 
your time and energy in looking at those high-risk, but high-
payoff, technologies that are going to keep our military highly 
effective and our warfighters very safe.
    So with that, I want to thank you again for being here and 
giving your distinguished service to the Nation.
    Thank you, Mr. Chairman, and I yield back.
    Mr. Wilson. Thank you, Mr. Langevin. I would like to remind 
each witness that your written statements will be submitted for 
the record. We ask you that you summarize your comments to 5 
minutes or less, and then after each one of you have made a 
presentation, each member of the subcommittee will have an 
opportunity at 5 minutes, and Kevin Gates is very strict on 
that 5 minutes, and you will notice that he cuts us off, so 
that we can all have an opportunity to participate. And again, 
we just appreciate your service so much.
    Mr. Welby, we will begin with you and we look forward to 
your opening statement.

STATEMENT OF STEPHEN WELBY, ASSISTANT SECRETARY OF DEFENSE FOR 
  RESEARCH AND ENGINEERING, OFFICE OF THE UNDER SECRETARY OF 
       DEFENSE FOR ACQUISITION, TECHNOLOGY AND LOGISTICS

    Mr. Welby. Chairman Wilson, Ranking Member Langevin, 
members of the subcommittee, I am pleased to appear before you 
today and have the opportunity to provide testimony on the 
Department of Defense's fiscal year 2017 science and technology 
program, and to join my colleagues from across the services and 
DARPA to report on the current state of science and technology 
in the Department.
    The DOD S&T program works to deliver a balanced portfolio 
of technology to the Department informed by awareness of global 
technology trends and critical threat capabilities. I believe 
we are at a pivotal moment in history. And the chairman 
mentioned this in his opening statement where the capacity that 
the Nation has relied upon to provide us with unmatched 
technological superiority on the battlefield is now being 
challenged. It is being challenged by investments in military 
technology being made by increasingly capable and assertive 
foreign powers. I believe that today, and, in fact, every day 
when I visit our laboratories and organizations across the 
defense enterprise, I encounter young scientists and engineers 
pursuing technological innovations motivated to meet the 
challenge that we see emerging globally, launching new and 
emerging capabilities in a variety of disciplines, and applying 
those technologies to create improved military capabilities 
informed by operational experience and needs.
    Our Department-wide focus on technological innovation seeks 
to identify and invest in those unique capabilities that can 
sustain and advance the Department's conventional military 
superiority into the 21st century. As Secretary Carter 
mentioned in his remarks on the budget at the Economic Club of 
Washington on the 2nd of February, we must take the long view 
and seize opportunities for the future in order to sustain our 
lead in full-spectrum warfighting.
    Today, the Department employs over 39,000 scientists and 
engineers in 63 defense laboratories, warfare centers, and 
engineering centers across 22 States, sustaining our ability to 
support and field militarily critical technology that often has 
no commercial equivalent. Our laboratories have produced very 
significant innovations in vital defense areas such as 
electronic warfare, propulsion, and weapons design. And 
maintaining this unique technical expertise within the 
Department is critical for ensuring the Department's ability to 
prepare for future threats.
    Over the last year, the science and technology community 
has not only supported the immediate needs of our warfighters, 
but also has taken action that has had strategic impact in the 
areas such as helping to eliminate Syria's chemical weapons 
stockpile and helping to deploy diagnostic laboratories to curb 
the spread of Ebola in West Africa.
    However, we cannot innovate and bolster our future 
technological superiority from within the Department alone. Our 
defense S&T enterprise touches the broadest range of emerging 
concepts through our deep engagement with academia, with 
industry, and our international partners, to help keep the DOD 
smart, knowledgeable, agile, and responsive in the face of new 
and emerging threats.
    This includes, as was mentioned, an outreach to a vibrant 
and growing commercial innovation community that sometimes 
doesn't see the Department as a natural customer, and doesn't 
think initially to apply their technologies to the national 
security sphere. And we want to break down those barriers and 
engage that fast-moving sector.
    In those areas, investments being made by the commercial 
technology sector are accelerating the development of 
technologies with critical relevance to future defense 
capabilities. Many of these small innovative commercial firms 
lack knowledge about defense systems, organizations, and 
problems that could benefit from their products and technology, 
and that is why we have made investments in activities like 
DIUx in Silicon Valley as a way to help match DOD customers 
with some of those potential sources of advanced capabilities 
that are rising from the commercial enterprises.
    As the Department looks to its future, there are 
significant challenges that will require renewed emphasis on 
sustaining our U.S. technological superiority. The United 
States must seek to develop and maintain asymmetric advantages, 
those that take advantage of fundamental U.S. strengths in 
military and commercial technology innovation and apply them to 
outcompete our competitors.
    We must accelerate our approaches to identifying promising 
technology differentiators, improve our process for mapping 
technology capabilities to operational advantage, and continue 
to focus on methods of moving capability much more rapidly from 
laboratory to field.
    For the last 6 years, the Department has engaged in a major 
effort to improve our internal acquisition processes through 
the Better Buying Power initiatives. The latest iteration of 
Better Buying Power 3.0 focuses the acquisition system of the 
Department on achieving dominant capabilities through 
technological excellence and innovation. That emphasis reflects 
the criticality of research and engineering on our overall 
acquisition success and emphasizes the need to bring and 
support a strong and effective DOD laboratory enterprise.
    I want to point out just very quickly three of the many 
Better Buying Power initiatives that are relevant to our S&T 
community. The first is the use of prototyping and 
experimentation to accelerate operational assessment and 
adoption of key technologies to advance current and future 
weapon systems. The second is the support for robust DOD STEM 
[science, technology, engineering, and mathematics] engagement 
to ensure that we have a future workforce and a pool of 
defense-relevant technical talent available to us to ensure our 
future capabilities.
    And, finally, I want to point out that the Better Buying 
Power reinforces the cost consciousness of our S&T community 
using tools like ``Should Cost,'' to ensure that we're getting 
the best return on investment for our taxpayer and warfighter.
    Our strength is in our people. We must recruit, retain the 
best and brightest military and civilian scientists and 
engineers and harness their innovative spirits to give our 
military forces a warfighting edge. Ultimately, our goal each 
day must be to ensure that our soldiers, sailors, airmen, and 
marines all have the scientific knowledge, the right 
technology, the advanced systems and tools, the best care, and 
the decisive advantage and material edge to succeed when called 
upon. Our research and engineering enterprise really does need 
to measure its success in the security of our Nation and the 
success of our warfighters. And we are trying to drive that 
home in everything we do.
    Let me thank you for your support for the Department's 
science and technology efforts as we work to discover, design, 
and deliver those technological capabilities that our 
warfighters will need to shape the future.
    [The prepared statement of Mr. Welby can be found in the 
Appendix on page 32.]
    Mr. Wilson. Thank you very much, Mr. Welby.
    We now proceed to Ms. Miller.

STATEMENT OF MARY J. MILLER, DEPUTY ASSISTANT SECRETARY OF THE 
   ARMY FOR RESEARCH AND TECHNOLOGY, OFFICE OF THE ASSISTANT 
SECRETARY OF THE ARMY FOR ACQUISITION, LOGISTICS AND TECHNOLOGY

    Ms. Miller. Chairman Wilson, Ranking Member Langevin, and 
distinguished members of the subcommittee, thank you for this 
opportunity to discuss the Army's science and technology 
program for fiscal year 2017. The United States faces a complex 
and growing array of security challenges across the globe. A 
new generation of threats and opportunities has emerged, and 
will continue to develop in unprecedented ways. Technology is 
evolving and proliferating at an exponential rate, and our 
enemies' access to this technology has closed the gap in our 
operational overmatch. We are in a race with our adversaries to 
harness and field the best military applications of innovation.
    In the 1990s the Army made great strides to advance night 
vision technology into operational capability to own the night. 
Based on those early S&T investments and the great work of our 
industrial base, the U.S. has enjoyed overmatch in night 
operations for almost two decades. Today other countries have 
developed or acquired similar capabilities, eroding our 
significant advantage. This is just one example of the impact 
of the globalization of technology, and emphasizes our need to 
continue to innovate alternative technologies and operational 
methods to maintain overmatch.
    The Army S&T enterprise cannot predict with certainty what 
challenges and threats the future holds, but it can organize 
itself to help prepare for the future, mitigating the 
possibility of technical surprise and ensuring that we remain 
dominant in any environment. Transparency, efficiency, and 
flexibility help us to invest our limited resources where they 
have the greatest payoff. This framework allows us to adjust 
our approach in response to changing circumstances. I am proud 
to represent the U.S. Army's nearly 12,000 scientists and 
engineers who are innovative change agents committed to solving 
difficult national security challenges and developing the 
capabilities needed by America's soldiers to overcome 
adversaries, both today and into the future.
    In past years, I have detailed to the committee our 
enduring Army challenges and how they influence the Army S&T's 
technology portfolio investments. Today, I would like to take 
this opportunity to describe some newer strategic initiatives 
that cut across our portfolios, and are instrumental in helping 
us realize our objectives. To quote General Milley, the Chief 
of Staff of the Army, ``We will do what it takes to build an 
agile, adaptive Army of the future. We need to listen and 
learn, first from the Army itself, from other services, from 
our interagency partners, but also from the private sector and 
even from our critics. Developing a lethal, professional, and 
technically competent force requires an openness to new ideas 
and new ways of doing things in an increasingly complex world. 
These strategic initiatives that I am discussing here are 
designed to help the Army do just that. Listen, learn, change, 
and adapt.''
    Technology war gaming is a reconnaissance effort undertaken 
by the S&T enterprise to foster greater innovation. It is 
focused on identifying concepts and conducting technology-based 
assessments about what technology will look like in the deep 
future, the 2030 to 2040 timeframe, and how this will affect 
both the Army and our adversaries. It includes crowd-sourced 
brainstorming, conducting virtual workshops with subject matter 
experts, and red teaming potential technology concepts to 
ensure technical feasibility.
    At the heart of this initiative lies a commitment to solid 
analysis and a focus on bringing in fresh ideas from a wide 
community, including innovative thinkers who haven't 
traditionally been a part of the Army's S&T planning process. 
We use these war games as the basis for strategic conversations 
on potential leap-ahead capabilities for the future force and 
how best to align resources and organizations to pursue those 
opportunities.
    Another key component of our S&T strategy is broadening and 
deepening our ability to identify, understand, and eliminate 
potential vulnerabilities in emerging technologies and future 
systems that could threaten their success upon deployment in 
Army operational settings against an evolving and responsive 
threat. Our S&T red-teaming investment provides in-depth, 
independent assessments of emerging technologies across 
laboratories, tabletop, and live-build environments. A number 
of years ago, the Army entrusted my office to initiate a pilot 
focused on technology transition. They established a budget 
activity for funding line with the intent to enable the Army to 
better transition across the often-cited ``valley of death.'' 
This pilot began with a small amount of dollars, but with a 
large vision, a vision that hinged upon establishing 
collaborative partnerships with the acquisition and 
requirements communities, conducting co-led technology 
maturation efforts for pre-milestone A or B activities leading 
into programs of record, and building prototypes that could be 
used by operators in mission scenarios to allow candid feedback 
on new capabilities.
    By understanding the technology trends of the future, 
assessing technology and system vulnerabilities, and conducting 
maturation and prototyping earlier in the acquisition life 
cycle, we can identify and address areas of risk before the 
government commits funding to programs of record. Ultimately, 
it is more cost effective to prove out innovative concepts and 
capabilities within the science and technology program than it 
is under a formal program acquisition.
    Finally, I would also like to acknowledge the support 
provided by members of this committee and your staff. Congress 
is one of our most important partners, and your strong support 
of the S&T enterprise helps ensure that the U.S. Army remains a 
preeminent force in the world. The Army S&T mission is never 
complete. We will continue working to ensure that our soldiers 
are always equipped with the technology to win. We owe our 
soldiers no less. Thank you, and I would be pleased to answer 
any questions you may have.
    [The prepared statement of Ms. Miller can be found in the 
Appendix on page 46.]
    Mr. Wilson. Thank you very much, Ms. Miller.
    And we now proceed to Admiral Winter.

   STATEMENT OF RADM MATHIAS W. WINTER, USN, CHIEF OF NAVAL 
RESEARCH AND DIRECTOR, INNOVATION TECHNOLOGY REQUIREMENTS, AND 
                   TEST AND EVALUATION (N84)

    Admiral Winter. Good afternoon, Chairman Wilson, Ranking 
Member Langevin, and distinguished members of this 
subcommittee. Thank you for the opportunity to appear before 
you today to discuss our Department of the Navy [DON] science 
and technology investment strategy that ensures our sailors and 
marines will retain the technological advantage on the 
battlefield, which is absolutely essential. Today, I am 
representing an incredible team of more than 4,000 scientists 
and technical professionals in the naval S&T community. My 
testimony will provide a snapshot of our naval S&T investment 
strategy that is fully supported by the President's fiscal year 
2017 budget request.
    As you know, the DON has a rich history of pushing the 
boundaries of our science and technology to ensure our Navy and 
Marine Corps are equipped with the capabilities that they 
require to perform the full range of military operations 
assigned to our naval forces in every theater against every 
known threat. Our ability to maintain that decisive 
technological advantage starts right here at the Office of 
Naval Research [ONR]. With our 70th anniversary this coming 
August, the Office of Naval Research has been delivering that 
technological advantage to our naval forces for over seven 
decades, leveraging the intellectual capital of our scientists 
to discover the new knowledge that generates the breakthrough 
technologies that delivers the innovative solutions to win our 
Nation's battles, and as importantly, strive for a global 
peace.
    The President's fiscal year 2017 budget request funds the 
required initiatives to support our Naval S&T Strategy, which 
is a key enabler in realizing our Navy's design for maintaining 
maritime superiority, and our Marine Corps' priority for 
modernization and technology outlined in Advance to Contact 
strategy, both of which were unveiled in January by our Chief 
of Naval Operations and our Commandant of the Marine Corps, 
respectively. Our logical and forward looking science and 
technology investment strategy leverages our S&T community 
triad--academia, industry, and government performers--to 
realistically deliver technological advantages.
    Our investments continue to yield a very high rate of 
return in terms of intellectual capital growth through our 
extensive academic STEM outreach initiatives, fostering of new 
innovative small businesses through our Small Business 
Innovative Research initiatives, and providing of game-
changing, next-generation capabilities for our sailors and 
marines through the partnerships with academia, industry, and 
our naval research and development establishment.
    During my first full year here as the Chief of Naval 
Research, this team has accomplished this a lot. We have 
awarded over 4,000 academic grants to domestic and 
international universities, inspiring and retaining the 
Nation's best and brightest talent. Our basic research 
conducted at our premier Naval Research Laboratory has 
generated over 200 basic research projects, resulting in 
discoveries of new knowledge, phenomenologies, and 
technologies.
    Last year, we filed over and were awarded over 380 
technical patents for new discoveries. It was the 16th 
consecutive year that the U.S. Navy ranked first amongst all 
U.S. Government agencies. And we successfully transitioned and 
demonstrated over 200 key technologies across that ``valley of 
death'' out of S&T to our warfighters and to programs of 
record. Leveraging these accomplishments, our ONR teams are 
executing ongoing research programs in a number of key priority 
areas that are yielding that high payoff and potential game-
changing capabilities for our sailors and marines.
    I would like to highlight a couple. Directed energy. Our 
directed energy efforts will enable our naval forces to truly 
fight at the speed of light. ONR-funded research delivered a 
solid state laser to the USS Ponce last year, successfully 
demonstrating destruction of surface and air targets. Our 
hypervelocity projectile program, the HVP, was successfully 
fired from a 5-inch Mark 45 gun with a ballistic range of 34 
nautical miles. We have had over 40 HVP firings to date, and 
have been executed paving the way for accelerated transition 
and leading to significant capabilities enhancement for our 
future naval force.
    Another critical warfighting enabler is access to assured 
information by keeping our Navy and Marine Corps cyber doors 
locked. Our naval tactical cloud research is providing the 
framework and big data analytics for our platform cyber defense 
solutions such as resilient hull, mechanical, and electrical 
security system. We call it RHIMES. RHIMES is a cyber 
protection system designed to make its shipboard mechanical and 
electrical control systems resilient to cyber attacks.
    Autonomy. Autonomy in the undersea domain is extending our 
capabilities in new ways. We have demonstrated our hybrid fuel-
cell-powered large displacement unmanned underwater vehicle. We 
call it LDUUV. And it completed its first tests at our Naval 
Surface Warfare Center, Carderock, and demonstrated the ability 
to launch a fuel-cell-powered unmanned aerial vehicle [UAV] 
from the underwater vehicle.
    Finally, our warfighters will benefit from our incredible 
breakthroughs in synthetic biology and medical research. 
Advances in medical technology, for example, including 3-D 
printing of live tissue into arteries, veins, and capillaries, 
will ensure that those in the battle and those returning from 
battle will not only survive, but will thrive.
    Throughout this coming year our focus will remain on 
rapidly delivering these innovative technological solutions. 
Examples of our initiatives coming in 2016: two new forward-
looking innovative naval prototypes that will push game-
changing technologies and capabilities to maintain our 
superiority in the undersea domain and our electromagnetic 
domain. Directed energy efforts will continue on the USS Ponce. 
We will leverage those lessons learned and we are moving 
forward with the technology maturation effort of a 150-kilowatt 
capability for future platforms.
    While we continue to work on the ground-based capabilities 
with our United States Marine Corps, the GBAD [Ground-Based Air 
Defense] system, which will give a vehicle-based, high-energy 
laser capability to our 21st century marine. We also are 
demonstrating at-sea capability for our low-cost UAV swarming 
technologies. We will be able to launch, form, control, and 
task 30 UAVs in an offensive swarm.
    And finally, we will take the next step in undersea 
autonomy, and we will conduct a long endurance transit test of 
our LDUUV operating submerged from San Diego to San Francisco. 
Our ONR scientist contributions are marked and making a marked 
difference to our Navy and Marine Corps. Key to these 
accomplishments are our partnerships. Partnerships with 
industry and academia, partnerships with our sister services 
and DARPA, and through our six ONR global locations around the 
world in London, Prague, Tokyo, Singapore, Santiago, and San 
Paulo, working with our international S&T partners around the 
world. We will continue to expand and deepen these partnerships 
to execute our S&T mission.
    Through innovative research, disruptive thinking, and high-
velocity learning, always striving to make existing systems 
more effective and affordable while improving breakthrough 
technology transitions to acquisition programs and our sailors 
and marines. And in doing so, we remain aligned with our Navy 
and Marine Corps leadership. Our Chief of Naval Operation and 
Commandant of the Marine Corps' strategic guidance is 
underpinned by our forward-thinking S&T investments.
    We cannot afford to do business as usual and wish away the 
technological advantages of emerging global actors that are 
challenging our warfighting supremacy. Our S&T strategy 
provides the framework to think and act differently for 
success. We must be committed, all of us committed, to pursuing 
the technology solutions for tomorrow today. It is essential to 
tie the technical to the tactical to the strategic. And we in 
the Navy and the Marine Corps are committed to ensuring the S&T 
resources that you and your congressional colleagues provide us 
gets the most bang for the buck by giving our sailors and 
marines the technological advantage on the battlefield to fight 
the fight and keep the peace.
    One final note, I offer to each and every one of you an 
open invitation to visit one of our 50 warfare centers and 
system centers around the world--or excuse me, around the 
United States. And right here in Anacostia, our Naval Research 
Laboratory, where you can get a firsthand look at our world-
class scientists, engineers, civilian employees that are the 
ones that are really making things happen. Gentlemen, I 
appreciate and thank you for your time this afternoon and your 
continued support of our S&T efforts. I look forward to 
answering your questions.
    [The prepared statement of Admiral Winter can be found in 
the Appendix on page 66.]
    Mr. Wilson. Admiral, thank you very much. And it is very 
encouraging to hear about the public/private partnerships you 
identified.
    Dr. Walker.

STATEMENT OF DR. DAVID E. WALKER, DEPUTY ASSISTANT SECRETARY OF 
 THE AIR FORCE FOR SCIENCE, TECHNOLOGY AND ENGINEERING, OFFICE 
  OF THE ASSISTANT SECRETARY OF THE AIR FORCE FOR ACQUISITION

    Dr. Walker. Thank you. Chairman Wilson, Ranking Member 
Langevin, members of the subcommittee and staff, I am pleased 
again to have the opportunity to provide testimony on the 
fiscal year 2017 Air Force Science and Technology Program, and 
our efforts to innovatively and affordably respond to 
warfighter needs today, while simultaneously creating the force 
of the future. I would like to thank Congress, and especially 
this subcommittee, for your continued support of the Air 
Force's S&T programs, our laboratories, the infrastructure, and 
most importantly, our valuable scientists and engineers. Over 
the past 3\1/2\ years that I have been the Air Force's science 
technology executive, I have seen the fruits of your labors and 
our ability to advance game-changing technologies, continue to 
develop our people, and strengthen the industrial base for the 
long-term security of our Nation.
    As you have heard from my colleagues today, and from the 
Air Force senior leaders in the past, we are at a critical 
juncture in history. The relentless pace of change continues to 
increase the complexity and decrease the predictability in 
warfare. We believe our science and technology program 
capability development processes, our STEM workforce, our 
laboratory infrastructure, are all critical to achieving new 
levels of strategic agility to address this rapid rate of 
change. By strategic agility, I mean harnessing the attributes 
of flexibility, adaptability, and responsiveness in order to 
make us more effective in a rapidly changing world.
    As highlighted in the Air Force strategy, strategic agility 
allows us to address evolving threat environments faster than 
our adversaries, which can help us counter uncertainty. Our 
efforts in this area, many of which are described in my written 
statement, support the Department's third offset strategy and 
are aligned with the long-range research and development 
planning program.
    Further, the Air Force is leveraging Mr. Kendall's Better 
Buyer Power 3.0 initiatives to strengthen our ability to 
innovate, to achieve technical excellence, and to dominate--to 
field dominant military capabilities. Air Force senior 
leadership is committed to S&T investment and embracing new 
paradigms and capability development. Our fiscal year 2017 
President's budget request for S&T is approximately $2.5 
billion, which represents a 4.5 percent increase over our 
fiscal year 2016 budget.
    We emphasize research in hypersonics and low-cost cruise 
missile technologies for contested environments in support of 
the long-range research and development planning program. We 
are working on advanced combat missiles and research and 
technologies that provide robust position, navigation, and 
timing capabilities; and, also, focusing on the Air Force's 
game-changing technologies which include hypersonics, 
autonomous systems, unmanned systems, directed energy, and 
nanotechnology.
    As a whole, this research is designed to amplify the speed, 
range, and flexibility and precision of air power. Our fiscal 
year 2017 President's budget request also includes increase 
funding in budget activities 4 and 6 to support our development 
planning, prototyping, experimentation, and our model and 
simulation efforts. The reinvigoration of development planning 
in the Air Force at the enterprise level gets us back to our 
roots, and allows us to really formulate innovative strategy 
choices and the leveraged attributes of agility and our 
capability to development. The Air Force is using enterprise 
capability collaboration teams as an approach to facilitate the 
developmental planning of our highest priority mission areas. 
These teams are chartered by senior leadership to explore 
cross-domain concepts of operations, combined with the existing 
and emerging technologies to address future warfighting gaps.
    The ultimate goal is to identify capabilities, concepts of 
operations, emerging technologies to inform acquisition 
decisions in the future. Experimentation is the engine to our 
reinvigorated development planning process. It enables the 
unfettered exploration of alternatives of future--future 
environments and brings together our operators, it brings 
together our technologists, the requirements generators, and 
the acquisition professionals, all collaborating together from 
the beginning to the end to develop a truly integrated approach 
to solving warfighting problems.
    We are currently conducting four pilot experimentation 
campaigns addressing future concepts for close air support, 
operationalized and directed energy, reducing time to move from 
data to decisions, and defeating agile and intelligent targets. 
We are also focusing on prototyping as a valuable tool across 
all levels of technology maturation from initial concepts to 
operational prototypes. Our adaptive engine transition program 
is an excellent example of prototyping being used to reduce 
risks and bridging the gap between S&T and a program of record.
    None of these efforts would be possible without our world-
class scientists and engineers operating state-of-the-art 
laboratory facilities. We continue to leverage the authorities 
and lab demo, the SMART [Science, Mathematics and Research for 
Transformation] scholarships, and other funding sources to 
recruit, retain, and develop our Air Force STEM workforce. In 
addition, we are leveraging section 219 and MILCON [military 
construction] funding to build and maintain world-class 
laboratory facilities for them to operate in.
    Chairman, and members of the subcommittee and staff, thank 
you again for the opportunity to testify today. I look forward 
to your questions.
    [The prepared statement of Dr. Walker can be found in the 
Appendix on page 86.]
    Mr. Wilson. Thank you very much, Dr. Walker.
    We now proceed to Dr. Prabhakar.

 STATEMENT OF DR. ARATI PRABHAKAR, DIRECTOR, DEFENSE ADVANCED 
                RESEARCH PROJECTS AGENCY (DARPA)

    Dr. Prabhakar. Thank you, Mr. Chairman, Mr. Langevin, 
members of the subcommittee. I will add my thanks for this 
opportunity to be here with my colleagues.
    DARPA works closely with this entire defense science and 
technology community. And we also work with defense companies, 
with commercial companies, with universities and labs of all 
sorts. We are very much part of this wide ecosystem. Within 
that ecosystem, DARPA has one specific role, and that is, to 
make the pivotal early investments in the technologies that can 
have huge impact, off-scale impact, on the future of national 
security.
    Now, today when we do that work, we do it in the context of 
these shifts in the global security environment in a world that 
is filled with fast-moving technologies, very much the themes 
that we have been talking about this afternoon. I wanted to 
give you one concrete example that brings all of that to life, 
and it is an example about aircraft self-protection. Today, 
when our aircraft go out on their missions, they are loaded up 
with a set of jamming profiles. So these are specific 
frequencies and wave forms that they can transmit in order to 
jam and disrupt an adversary radar to protect themselves.
    Sometimes when they go out today, they encounter a new kind 
of frequency, or a different wave form, one that they are not 
programmed for, that is not in their library. And in a time of 
conflict, that would leave them exposed. So what do we do when 
we come across that situation today? Today what we do is we 
have to send a new aircraft out, a different aircraft out, to 
collect that signal. That signal is then sent to a lab where it 
is analyzed, where a new jamming profile is created, where the 
development--where the new software upgrade for the system is 
developed, and then eventually, months, sometimes years later, 
our aircraft finally get the protection that they need against 
this new kind of radar signal.
    Now, in a time when our adversaries were changing their 
radar signals very rarely, that might have been okay. But, of 
course, that very slow-moving world is now gone. And in fact, 
it is actually just not that hard to modify a radar system 
today. If you think about it, the same technologies that 
brought--that have brought communications and the Internet to 
billions of people around the world, those are the same 
technologies that now people are using to modify radars to 
shift the frequencies and they use new wave forms. And we see 
that going on in many different regions around the world.
    One of our programs at DARPA is taking a whole new approach 
to this problem, this is an effort that we refer to as 
cognitive electronic warfare. We are using artificial 
intelligence to learn in real time what the adversary's radar 
is doing, and then on the fly, create a new jamming profile. 
And that whole process of sensing, learning, and adapting is 
going on continuously. So what all of that means is that our 
aircraft in the future won't have to wait weeks--you know, 
months to years, but in real time, in the battlespace, they 
will be able to adapt and jam this new radar threat that they 
get.
    I think that is just one example of how powerful it can be 
to first accelerate these areas of research and technology, and 
then apply them for our military capabilities. And across the 
DARPA portfolio, you will find many, many other examples of 
that kind of power of technology. They range from new systems 
that we are developing. We just put in the water our new 
surface vessel that will be able to navigate across the open 
ocean by itself without a single sailor onboard. If you look 
across our research portfolio, you will find that we are 
harnessing photons and algorithms, and even living cells to 
open possibilities that people really just couldn't even have 
dreamt about until today. And I am happy to talk about all of 
that, but I want to finish this afternoon by just touching on 
two pillars of your support that are so vital for us to be able 
to do this work.
    The first, of course, is the budget. And your support here 
has been vital to a relative stability that we have benefited 
from at DARPA over the last few years. So I will ask again for 
your full support of the fiscal year 2017 President's budget 
request level.
    The second area is people. And, of course, nothing could be 
more important to that--than that. I want to really give a 
special thanks to the work that this committee has done over 
many years, first in creating a special 1101 hiring authority, 
and then over many years, supporting that. That is a big reason 
that DARPA is able to move fast and hire exceptional people. 
And really, you know, great people and that trust that you have 
in us, that is why DARPA is able to develop breakthrough 
technologies that allow us to take these huge strides forward 
in our national security capabilities. And with your continued 
support, that is exactly what we will continue to do. So thank 
you very much. And I look forward to answering questions along 
with my colleagues.
    [The prepared statement of Dr. Prabhakar can be found in 
the Appendix on page 126.]
    Mr. Wilson. And, Dr. Prabhakar, thank you very much. And I 
also want to thank you so much for the opportunity I had to 
visit your facilities, to visit your personnel. It really is 
reassuring, and I hope that other members of the subcommittee 
will take advantage of the open invitation you have 24 hours a 
day, 7 days a week, to come visit. And--but it really is 
inspiring, the personnel that you have assembled.
    As we now begin the very strict 5 minutes, beginning with 
me. Mr. Welby, could you explain the third offset strategy? How 
are science and technology investments being aligned to support 
that strategy?
    Mr. Welby. Thank you, Mr. Chairman. As we have discussed 
in, I think, every statement here today, we find ourselves 
increasingly challenged by near-peer competitors who are 
investing in high-end capabilities, in ballistic missiles, in 
advanced cruise missile technology, in advanced electronic 
warfare and other capabilities that directly challenge U.S. 
systems. We recognize that as we look to the future, it is 
going to be increasingly difficult to compete with those 
capabilities in an investment-for-investment, dollar-for-
dollar, system-for-system basis. We need to be thinking harder 
about how we shift the shape of competition, the playing field 
on which our soldiers, sailors, and marines will be fighting 
into areas where can ensure the United States has an enduring 
dominant technical capability.
    The Deputy Secretary regularly talks about the first and 
second offset strategy, looking back to competition with the 
Soviet Union, and in the 1950s, how technical nuclear weapons 
were deployed to counter the numerical superiority of that 
threat and how, in the 1970s and 1980s, the Department 
developed precision weapons, ISR [intelligence, surveillance, 
and reconnaissance], low observability, novel use of space, 
network-centric capabilities, the toolkit that we have fought 
with since to remarkable success.
    Today, we now see others around the world building 
capabilities directly designed to blunt those U.S. advantages. 
We now see others having those capabilities which were once 
purely the domain of the United States. And as that symmetry 
begins to develop between ourselves and potential competitors, 
we want to assure that we have asymmetric advantage that we can 
deploy in the future.
    This whole discussion about offset strategies is about 
finding those technology offsets, how they map into operational 
capabilities, how we can invest in those capabilities that will 
begin to move the ball in a way that will shape a longstanding 
advantage for U.S. capabilities.
    And we believe those capabilities will rise from the 
emerging technical innovations that were discussed here today 
in areas like thinking about new long-range systems and 
exploiting manned/unmanned machine teaming in new ways and 
leveraging autonomy to build things like cognitive warfare 
systems, electronic warfare systems, and thinking about 
spectral agility, and many of the things that we are working on 
in our laboratories, but moving them faster into tactical 
application and arranging those into strategic concepts that 
will allow our forces to shape future battlefields.
    The topics that were mentioned earlier, things like the 
long-range research and development planning program, an 
activity that I led for the previous 18 months, provided a set 
of potential options for the future of the Department, new 
material systems that might offer significant advantage in the 
future, that report--while the report itself remains 
classified, is reflected in the support and decisions that were 
made in the shaping the 2017 budget submission, and informed by 
many--a number of other studies in areas and the ongoing war-
gaming activities that are going on across the Department.
    And, so, the third offset strategy is not a thing, if you 
will. It is an ambition to think differently about how a 
department will fight in the future, how the services will 
align technology, organization, and capabilities to provide 
that enduring advantage. But it is underpinned in a very 
significant way by our critical technology investments we are 
making here across the services.
    Mr. Wilson. Well, as a very grateful dad of four sons 
serving in the military, I appreciate you thinking ahead on how 
to protect our service members and protect the American people.
    And, Dr. Prabhakar, could you describe some of the efforts 
DARPA has initiated to combat the ability of groups like Daesh 
to spread violent extremist propaganda and radicalize users 
online.
    Dr. Prabhakar. Mr. Chairman, you have touched on something 
that is increasingly becoming integral to any kind of conflict 
around the world. Obviously, I think, we are all aware of the 
use of social media by ISIS [Islamic State of Iraq and Syria], 
ISIL. It is also very integral to hybrid warfare that we see 
the Russians engaging in. So I think it is a vital important 
area today.
    DARPA has had programs over the last several years that 
bring data analytics and tools to end users so that they can 
start to wrestle with this vast array of bits that are flying 
at them, whether it is military information or open online 
information. And building on those today, we are developing 
some tools that we hope will be very helpful in these kinds of 
future information conflicts. One specific area in the last 
year where we have had some good progress, last couple of 
years, has been focusing on the impact on what--we have been 
working with law enforcement who have been worried about human 
trafficking. And they have been struggling to really see--you 
know, if you think about where people advertise for the sex 
trade, for example, a lot of that is open advertising. But 
right now our law enforcement partners, we found, really are 
sort of searching that space single threaded, one Google search 
at a time, if you like, a very arduous way to figure out the 
patterns and the connectivity of the kinds of ads that are 
being served up.
    So what we have developed, in that case, was a set of tools 
that allow for very deep domain-specific, deep Web search, not 
just the surface Web that is indexed by Google or Bing, but 
really an ability to go deep into the open Web and find all the 
linkages among ads, for example, for human trafficking, that 
are related to human trafficking.
    What we find is that it dramatically enhances our law 
enforcement partners' ability to find those linkages. And that 
tool is now being used, for example, by the district attorney's 
office in New York, and has led to a number of indictments, and 
even at least one conviction.
    So I think that gives you a little bit of a sense of the 
power of the kinds of tools. When you apply these big data 
approaches to these areas like law enforcement, you can see, I 
think, how that would extend into the information warfare 
domain that sadly, I think, is going to become integral to 
conflicts going forward.
    Mr. Wilson. Well, thank you very much. And thank you for 
citing about human trafficking. I am very grateful. My home 
State of South Carolina, by State legislation and prosecution, 
has been one of the leading States to address what is just 
horrific.
    We now proceed to Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman. I thank our panel 
here, again, for your testimony here today and the work you are 
doing in these fields.
    Admiral Winter, if I could start with you, can you discuss 
the relationship and the coordination efforts between ONR and 
the Strategic Capabilities Office when it comes to directed 
energy efforts. And certainly, I would like to also hear from 
our other witnesses how you are working with the Strategic 
Capabilities Office as well. But, Admiral, let's start with you 
if we could.
    Admiral Winter. Yes, sir. I am in a periodic contact with 
Dr. Will Roper, who is the head of the Strategic Capabilities 
Office, and geographically, they are one block down from my 
office. And we have continuous discussions about the 
technologies that ONR is bringing forward that I mentioned in 
my opening remarks across the spectrum of electric weapons and 
directed energy specifically, but others. And so we have a 
number of relationships and technological partnerships with the 
Strategic Capabilities Office. I will focus on the electric 
weapons and the directed energy to your question, sir.
    Our work with the Strategic Capabilities Office is a 
partnership in requirements and funding to pursue the science 
and technology objectives of the Department of the Navy. Our 
Department of the Navy's strategic focus on laser and directed 
energy, so high energy laser and also high energy RF [radio 
frequency] technologies, to push forward to meet our Marine 
Corps and Navy objectives continues to move forward in marked 
progress, and moving forward, as I mentioned earlier. The 
Strategic Capabilities Office has come forward with their 
analysts and resources to provide us an opportunity to move 
faster and to move into different directions and partnerships.
    From an electric weapon perspective, we are in partnership 
with them on our electromagnetic rail gun. But I don't consider 
that directed energy. I look at that as more as electric 
weaponry.
    So right now, sir, those are the--that is our relationship. 
That is our engagement. The Strategic Capabilities Office 
provides those resources and guidance along the lines of the 
third offset strategy and other greater departmental 
warfighting capability analysis. And the Department of the Navy 
has the opportunity to partner and bring our resources to bear 
to help Dr. Roper and his team realize their mission.
    Mr. Langevin. Okay. We are not going to have--I am not 
going to have time, I don't think, to hear from everybody on 
that, but I would like to hear your feedback. Maybe you can 
respond in writing on how you are interacting with the 
Strategic Capabilities Office.
    What I would like to ask for all of you, is directed energy 
a priority, and, in particular, is it a priority for the 
Department? I know many of you are working on these things. 
And, Admiral, you have talked about. But I want to know, is it 
a priority for the Department? Are they ready to accept these 
technologies once they have matured, and what technologies are 
maturing in this field? I think you talked about the Ponce, 
Admiral. So maybe from the other ones if we could hear your 
perspective on these things?
    Mr. Welby. Maybe I could start and we could move down the 
table quickly.
    Mr. Langevin. Yeah.
    Mr. Welby. Sir, I believe that today--you know, we have 
long had a conversation about directed energy being just 5 
years off, and it has always been just 5 years off. And what--
you know, I have a strong background in working directed energy 
programs. I think we are now today at a very different place, a 
place where those systems are now rapidly moving towards 
realization and are going to have impact on future military 
capabilities. Each of the services has efforts underway today. 
We heard about the Ponce. I will let Dave talk about some of 
the things that the Air Force is doing, particularly in 
advanced beam direction, I think, that are putting the other 
pieces together for real airborne lasers, and the opportunities 
in programs of record in areas like IFPC [indirect fire 
protection capability], where the Army is considering utilizing 
directed energy as a tool in the counter-rocket, artillery, 
mortar space.
    I think we are now seeing application space emergence of 
capabilities, the breakthrough technologies, smart beam 
direction, realizable solid state lasers at high powers, 100 
kilowatt plus kind of levels, and the ability to amass large 
numbers of fiber lasers coherently and to be able assemble and 
scale at a way that we just have not been able to do. All 
those--I am very excited about what is happening in each of 
those spaces. I'll turn it down the table.
    Mr. Langevin. Thank you.
    Ms. Miller. So the Army is committed to pursuing directed 
energy. Our high energy laser program within the Army S&T is 
demonstrating capability and has been used in an analysis of 
alternatives for the indirect fire protection capability 
program of record. Right now, we are aligned to transition into 
that program of record in the 2023--fiscal year 2023 timeframe. 
Why that long? Because we are doing a step-wise demonstration 
of capability in the mission set of the Army. So we have to 
make sure that the lasers work and do the full set of scopes 
against the threats that we project. And those threats include 
the counter-rockets, artillery, and mortar, but also, UAV 
threats and cruise missile threats. We are trying to make sure 
that we understand, before we offer it to a soldier, what it 
can do and they understand its capabilities. And that is 
already planned in and funded.
    Dr. Walker. On the Air Force side, we have got a strong 
support for the Air Combat Command and our Air Force Special 
Operations Command [AFSOC] for integrating lasers defensively 
and offensively onto our aircraft in the future. Air Combat 
Command, together with the Air Force Research Lab, has 
commissioned the, what we call the Shield Advanced Technology 
demonstration to put a medium-powered laser, 30-kilowatt-class 
laser into a pod on a fighter aircraft to provide self-
protection with the goal to grow the power as the devices grow 
in power. The Special Operations Command [SOCOM] has now 
commissioned both the Air Force Research Laboratory and the 
Navy at Dahlgren working with SOCOM to look at putting an 
offensive capability onto a AFSOC 130 gunship.
    So that is a second one we are working. There is a lot of 
technology in beam steering and in power management, thermal 
management, that has to be worked in these that we are working 
under a considered S&T program with an eye toward transition on 
those two aircraft.
    Mr. Langevin. Very good. Thank you.
    And with that, I know my time I have gone over, and I know 
Mr. Lamborn has similar questions, my co-chair of the Directed 
Energy Caucus. So in that case, I will yield back, Mr. 
Chairman, and thank you.
    Mr. Kline. Thank you, Mr. Langevin. And now we will proceed 
to your teammate, Congressman Doug Lamborn of Colorado.
    Mr. Lamborn. Thank you. And I thank the co-chairman of the 
Directed Energy Caucus, Representative Langevin of Rhode 
Island, for beginning this subject. It is such an important 
subject. And I am just going to build on what he has already 
asked.
    How do you all make sure that you are not duplicating what 
each other is doing? I see three centers of important research 
of making things operational, not to mention DARPA. And so--and 
I don't know if that is for you, Mr. Welby, or for the 
individual branches to respond to. But how do we make sure that 
there is no duplication, you know, no reinventing the wheel 
going on, whether it is directed energy or anything?
    Mr. Welby. If I could quickly, I think this is a great area 
where we can demonstrate kind of solid cooperation coordination 
through S&T and across the services. The High Energy Laser 
Joint Technology Office serves as a clearinghouse and a center 
for coordination across all the efforts across the Department. 
And that allows us to ensure that each of our investments are 
aligned, not duplicative, and are building on each other. And I 
think that in each of the domains, there are service-unique 
issues. So it is with how those will be hosted on future 
platforms. But there is also supporting technology that 
services all those needs. And we very well coordinate, I think, 
in this space, across all those areas. And I will turn it 
back----
    Mr. Lamborn. And, Ms. Miller, I see that you have been 
working on this for 30 years. So--and, Admiral, did you want to 
respond to that as well?
    Admiral Winter. Not to the 30-year question, sir, but the 
center--the center--the communities of interest that the 
Department has established that allows the services and DARPA 
to come forward in functional areas allows us to share our 
resources, our research, and our efforts, not specifically for 
directed energy, but across the board, that allows us to see 
what I call common, cousin, and unique efforts. And there is 
some benefit in common research where it is appropriate. But as 
Mr. Welby mentioned, our uniquenesses for maritime shipboard 
applications, for example, and also looking at underwater 
directed energy applications, there is challenges in that. And 
so our efforts that go forward are looked at the Navy 
uniquenesses. I am very--sitting here now one year downrange, 
very satisfied that we collectively--we meet once a month at 
the senior level, and we have working group that meets once a 
week to talk across our span of 6.1, 6.2, and 6.3 research to 
understand where we can leverage off of each other. And not 
only within the Department of Defense, but with our industry 
partners, academia, and our other interagency folks.
    Mr. Lamborn. Mrs. Miller, would you agree that we are--like 
Mr. Welby has already said, that we are--it is not something 
that is always 5 years off, that we are now getting a lot 
closer, if not actually there, with operational directed energy 
weapons?
    Ms. Miller. I believe----
    Mr. Lamborn. Defensive and offensive.
    Ms. Miller [continuing]. I believe we are very close. And I 
think right now what we need to do is build trust with our 
operators so they understand what lasers can do. Lasers have 
been promised for an awful long time, and they have never held 
up and delivered what was asked for. And so the operators are 
quite rightfully skeptical, which is why you see the services 
taking laser out in operational environments and letting them 
be used by operators so they understand what the capabilities 
are.
    I think we are very close. And while we are looking at the 
large capabilities that these can provide, there will be steps 
along the way where we will spin out lesser capable laser 
systems that can do good things on smaller platforms, and that 
is something that you will see coming out relatively soon.
    Dr. Walker. A couple of things on that, sir. The Air Force 
every day is flying with lasers under our large aircraft, 
infrared countermeasure system. So we have done exactly that. 
We have spun out lower-powered lasers that gave us the 
capability to protect our aircraft, flying in theater today. 
The goal is to build off the experiences that we have had there 
to, as we get larger power outputs, better thermal management 
out of smaller packaged lasers to be able to transition these 
to other aircraft besides our large transport aircraft. And as 
we build those powers eventually moving defensive capability to 
using that same laser to give us offensive capability as well.
    So I think we are on a good path. The move to electronic 
lasers has allowed us to do that. The other point is, one of 
the reasons that we are able to do this well across the 
services, is that we have a joint technology office that really 
works those fundamental laser technologies for us as a joint 
team that we then spin off each into our own particular areas, 
our domains for usage. And having that office support, what we 
need as the three of us sit on the advisory panel to determine 
what they are going to actually invest the funds in, make sure 
that they are meeting our needs as a service.
    And the last piece is our partnership with DARPA has really 
allowed to us move lasers forward, moving the slab lasers, 
electric lasers, and moving into fiber lasers. DARPA has been a 
key partner in allowing us to do that.
    Mr. Lamborn. I appreciate the work that you are all doing. 
Thank you, Mr. Chairman.
    Mr. Wilson. And thank you co-chairman Lamborn. We now 
proceed to Congressman Marc Veasey of Texas.
    Mr. Veasey. Thank you, Mr. Chairman. I wanted to 
specifically ask you about talent as it relates to implementing 
a lot of this new technology. Of course, you know that the 
Secretary has visited Silicon Valley and talked with the 
executives there. How does the Department tap into these 
smaller companies, because so much of what has happened in 
Silicon Valley and the technology that we are using today, and 
so much of the technology that our enemies around the world are 
using, I mean, we have been following this deal with not being 
able to unlock the iPhone.
    How does the Department tap into the technology that may be 
available from some of these smaller companies that aren't 
necessarily coming up through some of the larger defense 
corporations and things like that that we normally use? Anybody 
that wants to answer that, it would be great.
    Mr. Welby. Let me start, again, and pass it down the table. 
I think we have a number of tools that we use I think very 
effectively to engage small innovative business. And small 
business is often the key engine for innovation. Traditional 
tools, like our Small Business Innovative Research program, our 
STTR [Small Business Technology Transfer] program, and tools 
like the Rapid Innovation Fund, which has a very large portion 
of small business engaged in rapidly moving contracts that can 
be rapidly exploited, moving technology to application.
    The Secretary has been committed to trying, opening the 
Department to new sources of innovation. He has been out 
engaging small companies in Boston, and on the West Coast, will 
happen in other parts of the country here shortly, personally 
demonstrating the importance of the Department engaging with 
small innovative business to think through ways that we can 
couple what they are working on with the needs of the 
Department.
    I spent a day last week out at our DIUx facility in 
Mountain View, where we had an afternoon and invited small 
innovative companies in to come talk to us. And we had over 200 
companies show up at that meeting. I spent 2 hours in one-on-
ones with small companies afterwards. A lot of these folks 
don't want to be called small companies, of course, because 
they want to be the next big thing and they take that as a bit 
of a--but it is really kind of remarkable sets of ideas. 
Traditionally, the challenge has been trying to connect those 
back to the needs of the Department, and many of these 
companies don't have the time, energy, connections, background 
knowledge to be able to make those kind of connections.
    And the question earlier was what are we trying to do with 
DIUx, part of it is to take that burden off of those companies 
and to allow some of our smart folks to serve as shepherds, if 
you will, to serve as ambassadors to connect those folks who 
have ideas, who have new emerging technology, often focused at 
a commercial market, and connect them with people in the 
Department who could really apply that.
    And so we have got folks sitting out in that facility in 
Mountain View today who understand a lot about the needs of the 
Department. They spend a lot of time talking to small 
innovative businesses, and they are trying to make those 
connections every day. We think that is going to help us 
accelerate the process. It is a people thing, as well as simply 
the kind of making sure we have dollars and contracting 
vehicles in place.
    Mr. Veasey. Yes, and let me ask you another question along 
the lines as far as innovation and technology. You know, one of 
the things that has been brought up also is retaining talent, 
the Pentagon being able to retain talent because Silicon Valley 
and other tech centers can pay so much more. Just from a 
budgetary standpoint, do you think that as far as retaining 
that talent, that maybe we need to look at paying those people 
more? And let me give you an example of what I mean by that. 
Like, for instance, in State government, like in the State that 
I am from, or the State that Mr. Aguilar is from, where you 
have large pension funds. The people that actually are the 
State employees that run those pension funds are usually the 
highest paid employees. They make a lot more than the Governor 
makes.
    Do you think that there should be some sort of a, you know, 
carve-out for individuals, because this is obviously going to 
be high priority with our enemies being able to more and more 
use this technology to try to harm us; that we should have some 
kind of a carve-out that will allow us to pay the people that 
have this expertise and keep them at the Pentagon?
    Mr. Welby. Sir, I don't want to keep them at the Pentagon. 
I want to keep them out in our laboratories where they are 
going to make those real compelling changes. But the thing I do 
worry about is talent. The thing that keeps me up at night is 
talent. And I am very excited that under the ``Force of the 
Future'' personnel initiatives that the Secretary has 
initiated, we are now talking about talent management, talent 
retention, recruiting, using kind of commercial recruiters as 
ways to get access to key talent.
    I don't worry that--in the government, it is going to be 
very difficult for us to compete dollar for dollar in terms of 
salary with folks. I note that last week, the National 
Engineering Salary Survey came out, and I noted that the 
average salary, not the talent that we are looking for, but 
kind of average over the engineering professionals in the 
United States, the typical pay increase was 7.5 percent over 
the last year. We haven't seen a 7.5 percent increase in 
government I don't think ever.
    So I mean, every year we kind of fall behind in terms of 
that offer we are able to make people. But people don't come to 
work for us because of the pay. Historically, people came to 
work for the government because of stability, but the current 
generation doesn't want stability. What they want is 
opportunity. And we offer, in many of the laboratories and many 
of our critical areas, the ability to make a difference, a 
mission that is compelling, an access to key technical tools, 
and in some areas, we are competing directly with the best for 
cutting-edge talent.
    I worry though, in some areas, biotechnology, in artificial 
intelligence, computer science, robotics, we are in a strict 
competition for talent. And I watch those areas very closely, 
and the folks that I have on my short list of our best, I see 
more leaving than coming in. So we are working hard to kind of 
focus our recruiting efforts in that area. We are thinking 
about what we can do to augment those people with contract and 
support or other mechanisms that we can have. But any 
flexibility in people I think is going to be critically 
important in the future.
    Dr. Prabhakar. I know we are late on time. I would like to 
just tag on one small comment. A very specific thing that we 
use all the time is the special hiring authority that this 
committee originated in 1999, and has extended over and over 
again. It is called the 1101 authority. It gives DARPA a little 
bit of flexibility in salary levels; not nearly enough to 
compete head on, but exactly, as Steve said, it makes it not 
completely impossible to go after some of these amazing people.
    But that authority is vital to our ability to bring in 
amazing people and we do regularly compete against staggeringly 
large number salary offers that our candidates are getting, and 
we are able to get them because they want to come change the 
world from DARPA. But the specific thing that this committee 
has an opportunity that can make a huge difference, is that 
1101 authority has been an experimental authority now for 16 
years. I think the experiment has really proven out, and I 
would ask for your support to make that a permanent option for 
hiring as we go forward.
    Mr. Veasey. Thank you.
    Dr. Walker. I would also like to weigh in on it. One of the 
things that really allows us to attract top talent is some of 
our scholarship capabilities, and the SMART program has been 
one that has been exceedingly successful for the Air Force and 
for the other services. One of the keys to retaining talent is 
getting them into the laboratory and getting them the 
opportunity to actually operate in the laboratory and have the 
freedom they get and the magnitude of responsibility they get 
within the government laboratories. The SMART program is a way 
to bring them in and then to continue to educate them as they 
move forward, and, so, that is one of the ways we have been 
able to bring in top talent, and so far, we have been retaining 
about 87 percent of our SMART-educated folks, once their 
government service mandate is up. So, that has been very 
successful. I would like to continue that one.
    Mr. Veasey. Thank you. Mr. Chairman, thank you very much.
    Mr. Wilson. Thank you, Mr. Veasey. We now proceed to 
Congressman Pete Aguilar of California.
    Mr. Aguilar. Thank you, Mr. Chairman, I appreciate the 
opportunity, and I had similar questions to Mr. Veasey related 
to your ranks and pipeline and the number of researchers we 
have. And I know out of the material that was one of the 
takeaways that I had is continuing to offer that flexibility 
and the resources that you have in order to attract and retain 
those who are at the laboratory level working hard for us.
    You know, we heard a little bit about directed energy, and 
within S&T, if you folks, you know, I may be the last 
questioner here, so, you know, within your crystal ball, if you 
were talking to your predecessor, or, I am sorry, your 
successor, you know, 10, 20 years down the line, what areas do 
you think this committee and those individuals will be working 
on? And I say that, Mr. Welby, you know, you talked about small 
businesses, and those in the outside world who were thinking 
about big ideas, and, but I mean, I look across this table, and 
what you have done in government, the five of you, you know, 
you are our innovators, and you are our line to, you know, 
weigh and discuss these issues of importance that are going to 
help protect and defend this country.
    And, so, I would just like to hear a few ideas or examples 
of things that you feel you would be talking to your successors 
about, you know, down the line if you were crystal balling 
looking at areas that this committee may have to weigh in on.
    Mr. Welby. Let me quick start. Sir, I've had the 
opportunity to kind of spend my life thinking about that 
future, trying to live in that future, trying to predict what 
those things that will matter will be. When I look across what 
is being invested in by my colleagues and the folks within the 
Department, I see four areas I will just bring up. There are 
many more. But I will go through these very quickly.
    One is unmanned and autonomous systems, the work that is 
going on in the Navy in unmanned undersea vehicles and the 
DARPA work in unmanned surface vehicles, the work going on in 
swarming air vehicles. I think we are going to see a lot of--a 
very fundamental change from the baby steps we have taken in 
that space today to a very different world in the future.
    I see a real opportunity as we come to the end of Moore's 
law where we have been able to predict microprocessor change 
over time, seeing explosion in new capabilities. We built 
industries on the predictability of Moore's law, which is 
coming to an end and it is going to create new opportunities. I 
think that we are going to see biology as a technology, a major 
push of DARPA's start to shape the world in fundamental ways. 
We need to think about that. That is an area for which the 
Department is not as strong as we could be. We need to start 
thinking about how we build our biological technology 
capabilities; not just--we think about biochem defense, but 
really, biology, for example, as a manufacturing science.
    And then thinking about that last topic, manufacturing, 
what is the future of manufacturing and design? How will we be 
delivering capability in the future? How will it be stanching 
that capability to advanced systems? I think that that list is 
interesting because those four things are not going to be 
unique to defense. All of them are going to have commercial 
implications and we need to be--if I tell my folks, we want to 
be able to surf the coming wave in these areas, but to be a 
good surfer, you have to be out in front of that wave paddling 
in front of it. And we need to be smart getting out in front of 
that before those things hit. And so that is my short list 
anyway, sir.
    Ms. Miller. So he had four critical ones and in the area of 
autonomy, you know, we are looking at intelligence systems and 
how we can get the capability to interface autonomous 
capability with humans and make sure that we have a seamless 
way to provide kind of design for individual capability, be it 
training, be it operating systems that scenario that goes into 
the biological sciences that we are not usually accustomed to. 
And so when we talk about building our workforce and giving 
them interesting dilemmas to bring them into our team to work 
for the Department of Defense, that is one of those areas that 
we are building up our expertise because we see that as 
critical for the future going forward.
    Admiral Winter. Sir, I just have to look at 30 years ago 
what was in our petri dish and test tubes that we are fighting 
with today. So what should be in our petri dish and test tubes 
today that we are going to be fighting with in 30 years that I 
would tell to my successor. I look at areas of brain-based 
learning, understanding the true neuroscience of human thinking 
and how we can model that into an engineering model that will 
allow us to truly realize cognitive artificial intelligence of 
man-machine capabilities. That is one area.
    Breakthrough in our nano and photonic domain, of being able 
to process and transmit data at rates that are just 
unfathomable today, based upon advanced material science and 
bringing that together to then enable that cognitive AI 
[artificial intelligence] and man-based and machine 
capabilities to levels we haven't even thought about, 
Terminators, those type of things, moving forward.
    And then from a bio-inspired perspective, the advances in 
our synthetic biology of being able to craft organisms that can 
eat ferro metallic material and excrete electricity in any 
domain, undersea, a vacuum, allows us to start to think of the 
possibilities of endless supplies of energy. Endless supplies 
of energy are things that people scoff at, but the scientists 
are the ones that are supposed to be doing the things that are 
scoffed at. So I see areas in brain-based learning, our bio-
inspired technologies, our cognitive IA, advanced materials, 
and photonics and nano areas. Thank you, sir.
    Dr. Walker. I have to say that we are all looking down the 
same path. One of the areas I really see promise that in 20 
years from now, I would hope to be actually the state of the 
art is really the science of the very small. Is how do we take 
advantage of nanomaterials, quantum effects, metamaterials, and 
then how do we link that with biological agents that actually 
help us manufacture those materials in a very effective way.
    There is a lot of promise in that area that I think we will 
see in the future will move us into being able to build 
materials that we don't even conceive at this point in time. 
The other areas which Mr. Welby hit on was manufacturing is 
fundamentally changing. And we are not going to see large 
factories in the future like we are used to today. We are going 
to see the ability to actually grow things and other 
manufacturing technologies that will allow us to get our 
economic order quantities down to the order of one, which will 
fundamentally change how we do business where we don't have to 
buy 1,000 to be effective.
    And the final one is in autonomy. We are just scratching 
the surface with autonomy and aiding humans. Autonomous 
decision-making to aid humans to be able to execute warfighting 
from a distance. We are seeing it now in its very infancy. 
Twenty years from now, we will just see this as everyday. You 
will see that every day when you get in your car and your car 
takes you where you want to go, and parks you where you need to 
be, and you read your iPad the entire time you are going there.
    Dr. Prabhakar. These are all great answers. I think they 
are terrific. Let me add one different kind of log on the fire. 
There is something happening with social behavior with the 
Internet, the Internet of Things and social media. And social 
behavior itself is changing, but also how we can look at and 
understand social behavior is changing in some fundamental 
ways. It is going to, in the next 10 or 20 years, I think it is 
going to give us even bigger headaches than we already see. We 
are going to have privacy headaches. We are going to have 
information warfare headaches. We see that today. I think those 
are going to get worse over time. But at the same time, what is 
happening is, I think there is going to be a fundamental shift 
in our ability to understand social behavior. And I would 
submit that there is actually nothing more fundamental to 
national security than that.
    Mr. Aguilar. Thank you, Mr. Chairman.
    Mr. Wilson. And thank you, Mr. Aguilar. And Dr. Prabhakar, 
the, as you have said, headaches, I was hoping with the 
Internet, it would be opportunity.
    Dr. Prabhakar. Both.
    Mr. Wilson. And it should be both, but sadly, recently I 
have seen more headaches than I have seen opportunity. And so 
we are counting on you to figure out how to address the 
headaches. So again, I am very grateful for each of you for 
your service. And there being no further business, and upon the 
advice of Mr. Langevin, we are now adjourned.
    [Whereupon, at 3:26 p.m., the subcommittee was adjourned.]



      
=======================================================================




                            A P P E N D I X

                           February 24, 2016

=======================================================================

      



      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           February 24, 2016

=======================================================================

      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
  
    
    
    
  

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                           February 24, 2016

=======================================================================

      

                   QUESTIONS SUBMITTED BY MR. WILSON

    Mr. Wilson. In your opening statement, you mentioned some work on 
swarming air vehicles. Could you provide some more details on that work 
so we can understand how that work, and what the Department is thinking 
about its applications and potential countermeasures?
    Mr. Welby. The Navy is pursuing science and technology efforts in 
autonomy and unmanned systems for naval operations. In 2015, the Navy 
demonstrated swarming unmanned aerial vehicles (UAVs) as part of the 
Low-Cost UAV Swarming Technology (LOCUST) program. The demonstrations 
are an important step on the way to the 2016 ship-based demonstration 
of 30 rapidly launched autonomous, swarming UAVs.
    The LOCUST program includes a tube-based launcher that can send 
multiple UAVs into the air in rapid succession. Information-sharing 
between the UAVs enables autonomous collaborative behavior in either 
defensive or offensive missions. This autonomous behavior will allow 
for the UAVs to adapt to changing adversary conditions to include 
countermeasures. Additionally, with the goal of low-cost, the program 
aims to ``bend the cost curve'' in our favor, especially when employed 
against conventional weapon systems.
    Because the launcher and the UAVs themselves have a small 
footprint, the technology could enable swarms of compact UAVs to be 
launched from ships, tactical vehicles, aircraft, or other unmanned 
platforms. Depending on a range of payload options, a wide variety of 
missions can be enabled ranging from surveillance to strike.
    Mr. Wilson. For each of you, how well do your service's science and 
technology strategies also integrate long-range planning for the 
facilities, people, and infrastructure needed to support the technical 
missions of your organizations?
    Mr. Welby. Within the Department, ASD(R&E) continues to provide 
oversight of the Department's comprehensive S&T investment portfolio 
through the Reliance 21 framework. Reliance 21 provides a forum to 
synchronize, coordinate, and deconflict Service and Agency S&T 
activities. In the last year, we improved joint planning and 
coordination of S&T activities among the Department's senior S&T 
leadership to achieve efficiencies and improve the effectiveness of our 
support to the operating force. This collaborative process captures the 
interests and activities of the entire R&E enterprise and all our 
partners in a collection of 17 Communities of Interest (COIs). The COIs 
maintain awareness of their portfolio areas by reviewing and assessing 
the alignment of current and planned R&E programs, identifying gaps, 
and helping to prioritize R&E funding efforts to meet the technical 
challenges of the DOD in their respective portfolio area. Each Reliance 
21 COI represents a specific, cross-domain technology area with a 
rotating steering group lead, and draws upon subject-matter experts 
from across the Department working in the relevant technology area. The 
Reliance 21 framework, its S&T Executive Committee, and technology area 
COIs are key mechanisms that support ASD(R&E)'s integrated oversight of 
the Department's S&T investments.
    Mr. Wilson. Could you highlight a few areas where the Long Range 
Research and Development Program for Ground Combat is likely to suggest 
focusing additional investments?
    Ms. Miller. The Long Range Research and Development Planning 
Program for Ground Combat (LRRDPP-GC) is an ongoing OSD study that is 
led by the Assistant Secretary of Defense for Research and Engineering. 
The LRRDPP-GC is focused on ground combat technologies that can be 
incorporated into developmental programs over the next five years and 
acquired and fielded in quantity within 15 years. It assesses 
capabilities within the following general areas: future conventional 
combat; future unconventional combat; future urban combat; combat 
operations conducted with traditional and non-traditional partners; 
sustaining combat capabilities in highly challenged cyber- and 
spectrum-denied environments; and future operations on human terrain. 
Until this study is completed, however, it would be premature to 
speculate on particular investment recommendations.
    Mr. Wilson. For each of you, how well do your service's science and 
technology strategies also integrate long-range planning for the 
facilities, people, and infrastructure needed to support the technical 
missions of your organizations?
    Ms. Miller. The Long-range Investment Requirements Analysis (LIRA) 
helps Army Science and Technology (S&T) facilitate more informed 
program planning and budget decisions by looking out over the next 30 
years. The LIRA has put additional rigor into the development of the 
Army's budget submission, creating an environment where the communities 
who invest in all phases of the materiel lifecycle work together to 
maximize the Army's capabilities over time and strengthen the ties 
between the S&T community and their Program Executive Office (PEO), 
Requirements community, sustainment and installation partners. While 
the facilities, people, and infrastructure are not currently a 
significant part of the LIRA process, this planning has allowed the 
laboratory directors to better understand their long-term needs in 
these areas. As we move forward with future LIRAs, we will look at 
further integrating laboratory and research and engineering facilities, 
people, and infrastructure needs into the process.
    Mr. Wilson. For each of you, how well do your service's science and 
technology strategies also integrate long-range planning for the 
facilities, people, and infrastructure needed to support the technical 
missions of your organizations?
    Admiral Winter. The Naval Science and Technology (S&T) Strategy 
uses a broad investment approach that leverages long-term, targeted 
basic research and applied research to give talented scientists and 
engineers in government, academia and industry, the flexibility to 
pursue new discoveries and promising ideas to support development of 
new capabilities for the warfighter.
    The labs, like other government entities, continue to struggle with 
competition for highly skilled S&T and support personnel given the 
salaries and benefits offered by industry and academia. However, 
workforce planning and development is fairly decentralized so that S&T 
laboratory directors have sufficient influence on the size and shape of 
their workforce.
    The basic building block for the future workforce is a robust, 
strategic commitment to Science, Technology, Engineering and 
Mathematics (STEM) education and talent-development to nurture and 
sustain a well-educated, highly-experienced and motivated workforce. 
Through Section 219 of the Duncan Hunter National Defense Authorization 
Act for Fiscal Year 2009 (Public Law 110-417, 122 STAT. 4356), the 
Naval Innovative Science & Engineering (NISE) Program makes funds 
available to Navy laboratories and warfare centers to support in-house 
workforce efforts. This has been important in expanding the technical 
capabilities of the STEM workforce, through hands-on work, as well as 
in providing training and advanced degrees. NISE efforts have provided 
breakthrough research and have been responsible for maturation and 
transition of technology to the warfighter and programs of record. NISE 
has encouraged cross-organizational multi-disciplinary projects that 
include partnerships with academia and industry.
    The aging and deteriorating portions of Navy laboratories and 
warfare centers threaten their ability to successfully address their 
mission of discovering and developing future technology. Navy 
laboratories and warfare centers face the additional challenge of 
competing with other Military Construction priorities, such as docks 
for fleet ships, base housing and base hospitals. As technology rapidly 
advances, laboratory building construction costs continue to grow.
    The infrastructure challenges faced by laboratory directors include 
limited availability of maintenance, repair and construction funding; 
and reduced capacity of centralized facilities contracting/management 
functions (also due to limited funding). As a result, our S&T 
laboratory directors cannot effectively plan for or ensure the long 
term readiness of S&T facilities and infrastructure. Additionally, our 
aging facilities and recapitalization challenges also impact our 
ability to recruit and retain highly skilled S&T and support personnel, 
mentioned above.
    Mr. Wilson. For each of you, how well do your service's science and 
technology strategies also integrate long-range planning for the 
facilities, people, and infrastructure needed to support the technical 
missions of your organizations?
    Dr. Walker. The strategic goals in the Air Force Science and 
Technology (S&T) Strategy (2014) provide for integrated long-range 
planning for the people, facilities, and infrastructure necessary to 
support the Air Force S&T enterprise. Three of the seven strategic 
goals are specific to these vital areas. All of these strategic goals 
inform the efforts carried out under the Air Force Research 
Laboratory's Strategic Plan. Our strategic focus on long-range planning 
ensures our S&T enterprise can be successful now and into the future.
    Mr. Wilson. For each of you, how well do your service's science and 
technology strategies also integrate long-range planning for the 
facilities, people, and infrastructure needed to support the technical 
missions of your organizations?
    Dr. Prabhakar. Within the Department, ASD(R&E) continues to provide 
oversight of the Department's comprehensive S&T investment portfolio 
through the Reliance 21 framework. Reliance 21 provides a forum to 
synchronize, coordinate, and deconflict Service and Agency S&T 
activities. In the last year, we improved joint planning and 
coordination of S&T activities among the Department's senior S&T 
leadership to achieve efficiencies and improve the effectiveness of our 
support to the operating force. This collaborative process captures the 
interests and activities of the entire R&E enterprise and all our 
partners in a collection of 17 Communities of Interest (COIs). The COIs 
maintain awareness of their portfolio areas by reviewing and assessing 
the alignment of current and planned R&E programs, identifying gaps, 
and helping to prioritize R&E funding efforts to meet the technical 
challenges of the DOD in their respective portfolio area. Each Reliance 
21 COI represents a specific, cross-domain technology area with a 
rotating steering group lead, and draws upon subject-matter experts 
from across the Department working in the relevant technology area. The 
Reliance 21 framework, its S&T Executive Committee, and technology area 
COIs are key mechanisms that support ASD(R&E)'s integrated oversight of 
the Department's S&T investments.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. LANGEVIN
    Mr. Langevin. How you are you working with the Strategic 
Capabilities Office?
    Mr. Welby. When clearances allow, ASD(R&E) personnel monitor 
Strategic Capabilities Office (SCO) efforts to avoid the potential for 
duplication and looks for opportunities to collaborate. To that end, 
ASD(R&E) personnel currently participate in bi-weekly SCO enterprise 
VTCs, and SCO is now partnering with ASD(R&E) on the Small Satellite 
Communications Network Joint Capability Technology Demonstration 
initiated in FY 15.
    ASD(R&E) personnel periodically brief SCO on relevant technologies 
when there are opportunities to assist SCO to achieve its objectives. 
The latest example is an upcoming briefing on hand held link 16-effort.
    Mr. Langevin. How do the S&T and intelligence communities work 
together to drive an informed investment strategy? How are S&T programs 
prioritized in order to meet threats now, and those in the mid and 
long-term?
    Mr. Welby. The Science and Technology (S&T) and Intelligence 
Communities (IC) collaborate through a number of efforts to develop an 
informed strategy. These efforts include development of an annual 
Intelligence Needs Plan (INP), routine liaison with a number of 
individual agencies, and close engagement with the Director of National 
Intelligence's S&T and weapons-related IC.
    The INP is a formal document that provides the IC's, OASD(R&E)'s, 
and the S&T Executives' intelligence requirements for current programs, 
as well as intelligence requirements and gaps that need to be filled to 
begin developing capabilities to mitigate near-term and emerging 
threats. The value of the INP for the Services and the S&T Communities 
of Interest is that the INP is the means to ensure that S&T 
intelligence needs are represented in the IC's planning.
    Liaison with various intelligence agencies, through both the 
Defense Intelligence Officer for S&T and numerous agency liaison and 
support officers, occurs on a regular basis to inform ongoing S&T 
efforts and development of longer-range priorities. As an example, 
ASD(R&E) in collaboration with the acquisition community and the IC, 
collects data on U.S. and threat systems to identify and assess 
potential strategic, operational, and tactical vulnerabilities across 
the near-, mid-, and far-term. The issues identified through these 
assessments are prioritized based on the expected impact to operational 
success. These assessments also highlight areas where insufficient 
information is available on adversaries' capabilities. These 
intelligence shortfalls are then communicated back to the IC to inform 
the development of collection requirements through the Intelligence 
Needs Plan.
    Mr. Langevin. How you are you working with the Strategic 
Capabilities Office?
    Ms. Miller. The Army Acquisition Executive and DASA Research and 
Technology hold regular meetings with Director, SCO to ensure our 
efforts are synchronized. Additionally, the SCO directly engages 
subject matter experts at the Army labs and centers. One example of SCO 
leveraging current Army S&T investments is with our Extended Range 
Cannon Artillery (ERCA) effort and subject matter expertise at the US 
Army Armament Research Development and Engineering Center (ARDEC) to 
evaluate and demonstrate firing the OSD-funded, Navy-developed 
Hypervelocity Projectile from an Army powder gun. The SCO is also 
leveraging Army S&T investments and subject matter expertise at the 
Aviation and Missile Engineering Research and Development Center 
(AMRDEC) to evaluate and demonstrate repurposing of existing missile 
technologies in the area of Fire Support.
    Mr. Langevin. How do the S&T and intelligence communities work 
together to drive an informed investment strategy? How are S&T programs 
prioritized in order to meet threats now, and those in the mid and 
long-term?
    Ms. Miller. Understanding the current and projected threat 
environment is essential as we develop future capabilities and our 
investment strategy. To this end, we are engaging the National Ground 
Intelligence Center, the Army G2 and the Office of Technical 
Intelligence at OSD to remain aware of projected future threats and 
identify areas of interest for future assessment. Our red teaming/
vulnerability analysis activities and our technology wargaming are also 
fostering closer ties between S&T and the intelligence community while 
providing insights into potential areas for future investments.
    Mr. Langevin. How do the S&T and intelligence communities work 
together to drive an informed investment strategy? How are S&T programs 
prioritized in order to meet threats now, and those in the mid and 
long-term?
    Admiral Winter. The Naval S&T community maintains a robust Science 
and Technology Intelligence Liaison Officer (STILO) program. These 
full-time liaison officers are embedded in 25 naval systems commands, 
warfare centers, laboratories, and university affiliated research 
centers, ensuring the flow of threat information from intelligence 
community (IC) to the science and technology (S&T) community. These 
liaisons also serve to connect intelligence analysts with technical 
subject matter experts from the Naval S&T community to assist the IC in 
assessing the maturity and implications of scientific developments by 
adversaries. Additionally, STILOs have the authority to formally task 
the IC with intelligence production requirements in support of Naval 
S&T.
    U.S Naval forces require a broad spectrum of core capabilities to 
assure access to the global maritime domain. Consequently, the Naval 
Science and Technology (S&T) strategy invests in a balanced and broad 
portfolio of promising scientific research and innovative technology in 
the United States and around the world.
    Science and technology investment balance, to address near-term and 
mid-to-long-term priorities, is provided by the Navy S&T Strategy and 
guidance from the Navy Research, Development, Test & Evaluation (RDT&E) 
Corporate Board. There are four components of the investment portfolio.
    <bullet>  Discovery and Invention (D&I) makes up 50% of the 
portfolio and includes basic research (6.1) and early applied research 
(6.2) to address long term priorities.
    <bullet>  Leap-Ahead Innovations make up 12% of the portfolio and 
includes Innovative Naval Prototypes and the majority of SwampWorks 
efforts. This component of the technology portfolio defines the future 
of naval warfighting.
    <bullet>  Technology Maturation makes up 30% of the portfolio to 
deliver critical component technologies to naval acquisition programs. 
This includes Future Naval Capabilities, which mature in a two- to 
four-year time frame into products from the late stages of applied 
research (6.2) and advanced technology development (6.3).
    <bullet>  Quick Reaction makes up 8% of the portfolio by responding 
to urgent technology needs and solves problems for warfighters in the 
near-term. This includes funds for TechSolutions, as well as Navy and 
Marine Corps experimentation.
    The Naval S&T strategy is to discover, develop and deliver decisive 
naval capabilities, near to long term, by investing in a balanced 
portfolio of breakthrough scientific research, innovative technology 
and talented people.
    Mr. Langevin. How you are you working with the Strategic 
Capabilities Office?
    Dr. Walker. The Air Force is in dialogue with the Strategic 
Capabilities Office (SCO) to determine areas where our S&T enterprise 
can coordinate and leverage SCO efforts. The Air Force also has a 
liaison position within the SCO to facilitate communication.
    Mr. Langevin. How do the S&T and intelligence communities work 
together to drive an informed investment strategy? How are S&T programs 
prioritized in order to meet threats now, and those in the mid and 
long-term?
    Dr. Walker. The Air Force S&T planning process brings together 
diverse groups of stakeholders to ensure our S&T efforts are well 
understood and aligned with Air Force priorities. This includes 
maintaining a robust research component that pushes the technological 
state of the art across a range of areas for potential military 
application as well as being responsive to near-, mid-, and far-term 
technology needs as expressed by the intelligence, operational, and 
acquisition communities. Air Force S&T planning is integrated into the 
Air Force's strategy, planning and programming process (SP3) to ensure 
S&T investments address areas of research and development consistent 
with time-phased Air Force priorities.
    Mr. Langevin. How you are you working with the Strategic 
Capabilities Office?
    Dr. Prabhakar. When clearances allow, ASD(R&E) personnel monitor 
Strategic
Capabilities Office (SCO) efforts to avoid the potential for 
duplication and looks for opportunities to collaborate. To that end, 
ASD(R&E) personnel currently participate in bi-weekly SCO enterprise 
VTCs, and SCO is now partnering with ASD(R&E) on the Small Satellite 
Communications Network Joint Capability Technology Demonstration 
initiated in FY 15.
    ASD(R&E) personnel periodically brief SCO on relevant technologies 
when there are opportunities to assist SCO to achieve its objectives. 
The latest example is an upcoming briefing on hand held link 16-effort.
    Mr. Langevin. How do the S&T and intelligence communities work 
together to drive an informed investment strategy? How are S&T programs 
prioritized in order to meet threats now, and those in the mid and 
long-term?
    Dr. Prabhakar. The Science and Technology (S&T) and Intelligence 
Communities (IC) collaborate through a number of efforts to develop an 
informed strategy. These efforts include development of an annual 
Intelligence Needs Plan (INP), routine liaison with a number of 
individual agencies, and close engagement with the Director of National 
Intelligence's S&T and weapons-related IC.
    The INP is a formal document that provides the IC's, OASD(R&E)'s, 
and the S&T Executives' intelligence requirements for current programs, 
as well as intelligence requirements and gaps that need to be filled to 
begin developing capabilities to mitigate near-term and emerging 
threats. The value of the INP for the Services and the S&T Communities 
of Interest is that the INP is the means to ensure that S&T 
intelligence needs are represented in the IC's planning.
    Liaison with various intelligence agencies, through both the 
Defense Intelligence Officer for S&T and numerous agency liaison and 
support officers, occurs on a regular basis to inform ongoing S&T 
efforts and development of longer-range priorities. As an example, 
ASD(R&E) in collaboration with the acquisition community and the IC, 
collects data on U.S. and threat systems to identify and assess 
potential strategic, operational, and tactical vulnerabilities across 
the near-, mid-, and far-term. The issues identified through these 
assessments are prioritized based on the expected impact to operational 
success. These assessments also highlight areas where insufficient 
information is available on adversaries' capabilities. These 
intelligence shortfalls are then communicated back to the IC to inform 
the development of collection requirements through the Intelligence 
Needs Plan.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. NUGENT
    Mr. Nugent. The Office of Naval Research is conducting 
groundbreaking research into the dangers of working for prolonged 
periods of time in extreme high and low pressure environments. I want 
to give you an opportunity to talk about the innovative solutions being 
developed under your leadership to prepare our forces for these extreme 
conditions. Can you describe the extreme pressure conditions these 
warfighters are operating in? Who in the Navy gets exposed to these 
conditions? Beyond preparation for a dive, I was amazed to learn that 
your research is developing treatments for those who suffer adverse 
effects of prolonged atmospheric pressure in the past. Would you please 
tell us a little bit about that treatment portion of your work? Is the 
limitation of your research one of technology or of funding? In other 
words, could the Warfighter Sustainment program do more to prevent and 
treat service members exposed to extreme environments with an increase 
in funding in fiscal year 2017?
    Admiral Winter. The Office of Naval Research (ONR) has a 
longstanding history of supporting undersea warriors, including Navy 
Divers, SEALs, and submariners, through the Undersea medicine program, 
one of the five ONR ``National Naval Responsibilities''. The missions 
include deep dives to work on the ocean floor, clandestine transits in 
cold, dark waters, and long durations in the confines of the submarine. 
The Undersea Medicine Program comprises the science and technology 
efforts to overcome human shortfalls in operating in this extreme 
environment.
    One threat faced by both undersea operators and aviators is 
decompression sickness (DCS), as a result of the body absorbing and 
releasing nitrogen and other gases with changing atmospheric pressure. 
Research is underway to better understand the causes of DCS and to 
develop pharmaceutical interventions to prevent and treat DCS. A theory 
that has derived from ONR supported research is that the extreme 
pressures cause small pieces of our body's cells called microparticles 
to break off and enter the blood stream. These microparticles are 
thought to act as a nucleus for the formation of gas bubbles. This 
finding lends itself to further research to understand how 
microparticles can be effectively treated. The program is also 
supporting development of injectable substances that can absorb the 
extra gases in the blood stream.
    The high pressures also affect the way the body responds to oxygen. 
Oxygen toxicity seizures and lung damage can occur when operators are 
exposed to abnormally high levels of oxygen while, for example, using a 
clandestine rebreather to avoid a bubble trail. Undersea Medicine is 
exploring the repurposing of FDA-approved epilepsy and asthma drugs to 
treat these conditions. Recent findings with an animal model have 
demonstrated that a high-fat dietary supplement can delay the onset of 
oxygen toxicity seizures and are now moving to human testing.
    Conversely, hypoxia, the condition when the body can't acquire 
enough oxygen is a concern with breathing equipment use, high-altitude 
mountain operations, and casualty evacuations. A ``Hypoxia Alert and 
Mitigation System'' is under development for aviators and medical 
personnel to prevent and treat hypoxia.
    Undersea Medicine is also addressing the increased operational 
focus being placed on undersea clandestine operations. Undersea Human 
Performance efforts apply advancements in the understanding of the 
human mind and body to the areas of human-systems integration, 
underwater situational awareness, and maintaining physical and 
cognitive readiness. For the first time, researchers from Navy 
laboratories are measuring the unique nutritional and metabolic demands 
of the SEAL Delivery Vehicle operators and will be conducting biometric 
assessment and performance modeling during cold water training 
evolutions. Collaboration between Naval Special Warfare and the 
research community have highlighted nutrition, hydration, respiration 
and thermal stress as key areas of future investigation.
    The Navy supports the President's budget. If additional funds were 
available, investments could allow groundbreaking new research in 
genetics, synthetic biology, neuroscience, and physiology to be applied 
to the undersea domain. Examples of specific areas that could be 
addressed include understanding how these extreme environmental 
exposures affect the genes of the operators, analyzing the effects of 
undersea operations on the gut microbiome, and determining the 
effectiveness of virtual reality training for underwater missions. 
Further investments would also enhance the unique Undersea Medicine 
infrastructure of personnel and facilities in academia, industry and 
the Navy laboratories.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. CASTRO
    Mr. Castro. What additional paths do you see aside from ROTC 
programs, to recruit young men and women into STEM jobs within the 
Federal Government?
    Mr. Welby. The Department has multiple avenues available to engage 
with young men and women interested in working with DOD in STEM-related 
positions. The Science, Mathematics And Research for Transformation 
(SMART) Scholarship for Service Program provides students pursuing an 
undergraduate or graduate degree in STEM disciplines the opportunity to 
receive a full scholarship and employment by the Department upon degree 
completion. In addition, the Department participates in the Federal-
wide Pathways Program, which provides opportunities for internships, 
recent-graduate hiring, and the Presidential Management Fellows (PMF) 
program. All three opportunities provide mechanisms for students to 
engage with the DOD in STEM-related positions that can lead to hiring.
    The DOD Labs also have their own programs that may lead to hiring. 
For example, both the Army and the Navy labs have a science and 
engineering apprentice program that may lead to a formal hiring 
arrangement. In addition, the Labs are able to leverage their 
flexibilities as Science and Technology Reinvention Laboratories 
(STRLs) to hire through their specific authorities such as Direct Hire 
Authority, non-competitive transition to full-time positions, and 
others. In addition to the DOD Labs workforce initiatives, the Human 
Capital Initiatives (HCI) office within OUSD(AT&L) focuses specifically 
on the acquisition workforce. Broader workforce initiatives take place 
in OUSD(P&R).
    Finally, for recruitment, the DOD participates in multiple career 
fairs, college campus recruiting events, and mentorship programs. All 
of these activities are opportunities for the Department to promote 
STEM-related positions and directly engage with interested students.
    Mr. Castro. What additional paths do you see aside from ROTC 
programs, to recruit young men and women into STEM jobs within the 
Federal Government?
    Ms. Miller. Hiring a diverse and highly-qualified STEM workforce is 
critical; however, the harder challenge is ensuring the Army has a 
STEM-literate workforce not just in STEM jobs but across the entire 
ecosystem supporting the Warfighter. The Army provides various methods, 
beyond R.O.T.C., that work to bring in outstanding talent--not just for 
immediate hiring needs but also for our long-term workforce needs. We 
use various ways to engage young men and women and introduce 
opportunities within the Army so that we may attract the right talent 
that is uniquely qualified for each requirement. These methods include 
providing scholarships, mentorship, and unique hands-on experiences; 
however selecting and recruiting specific personnel for our science and 
technology laboratories is done directly at the laboratories 
themselves. This is intentional so as to ensure that our labs have the 
right people, at the right time and where they are needed so that our 
labs and researchers are uniquely qualified for their areas of interest 
and responsibility.
    Some of the paths our laboratories use to bring in the right people 
are the direct hiring authorities that allow us to recruit and bring 
onboard some of the most highly qualified STEM talent entering the 
workforce. We also have short term training initiatives that provide 
existing personnel with the skills to fill jobs and recruit from 
within. One program that we successfully use is the DOD Science, 
Mathematics and Research for Transformation (SMART) Scholarship for 
Service retention program. SMART has proven to be a very successful 
model to recruit young talent to work for DOD. Additionally, we use 
research grants to our academic institutions, inclusive of our 
historically black colleges and universities as well as our minority 
serving institutions, to work with us on some of our hardest technical 
challenges. These research investments help introduce young and 
promising students to the many opportunities available to them within 
Science & Technology workforce. Lastly we invest in our future 
researchers and leaders by providing them access to our research 
facilities and STEM professionals at a young age through the Army 
Educational Outreach Program (AEOP). AEOP is executed under a 
cooperative agreement that brings together our Government, industry, 
and academic partners to provide students access to our laboratories 
and research centers for STEM enrichment activities, provide one-on-one 
mentorship opportunities through apprentice programs and reward student 
achievements in research through competitions, all while introducing 
students to the world of DOD research. One of the main objectives of 
AEOP is to build the diverse and highly qualified talent pool for which 
our work depends.
    Mr. Castro. What additional paths do you see aside from ROTC 
programs, to recruit young men and women into STEM jobs within the 
Federal Government?
    Admiral Winter. In addition to science, technology, engineering, 
and mathematics (STEM) opportunities available through the Navy Reserve 
Officers Training Corps (ROTC), the U.S. Naval Academy and other 
programs leading to a commission in the officer corps, there are 
numerous enlisted ratings offered through Navy Recruiting Command, 
focusing on STEM-related occupations.
    To attract, recruit, develop, and retain bright, talented young men 
and women into STEM fields within the civilian workforce, the 
Department of the Navy (DON) administers and participates in a number 
of programs overseen by the Office of Personnel Management (OPM), and 
managed by the Office of the Secretary of Defense (OSD), the Office of 
Naval Research (ONR), and the individual naval laboratories and warfare 
centers.
    OPM provided federal agencies the means to solicit and select high 
school, undergraduate, and graduate students into the Pathways Programs 
via USAJOBS. The DON participates in the Pathways Internship and Recent 
Graduates Programs overseen by the Department of Defense (DoD) per the 
memorandum of understanding with OPM. While the Pathways Programs have 
served as a pipeline, they have presented some challenges. Hence, we 
are anxiously awaiting the publication of the federal register update 
that will allow the implementation of National Defense Authorization 
Act (NDAA) 2015 Section 1105, Temporary Authorities for Certain 
Positions at Department of Defense Research and Engineering Facilities, 
and NDAA 2016 Section 1104, Modification to Temporary Authorities for 
Certain Positions at Department of Defense Research and Engineering 
Facilities. Section 1105 establishes a pilot program for direct hiring 
authority for the laboratory directors of specified laboratories for 
STEM undergraduate or graduate students on a temporary or term basis, 
for up to three percent of a laboratory's scientific and engineering 
positions. This authority will provide flexibility for students and for 
the Navy sponsoring activities to recruit and temporarily employ the 
``best and brightest.'' Section 1104 of the NDAA 2016 provides 
additional flexibility which allows for the non-competitive conversion 
to permanent appointments upon successful completion of undergraduate 
and graduate education.
    The DON also uses the DOD Science, Mathematics & Research for 
Transformation (SMART) Scholarship Program, a scholarship-for-service 
program through which the DOD provides scholarship funds for 
undergraduate and graduate STEM students at over 200 universities and 
colleges, including Historically Black Colleges and Universities and 
other Minority-Serving Institutions (HBCU/MIs). SMART students are 
mentored by scientists and engineers while working in the DOD 
laboratories and facilities during the summer months. Students gain 
valuable experience that often leads to an opportunity for full-time 
post-graduate employment with those laboratories and facilities.
    ONR funds two internship programs, the Science and Engineering 
Apprenticeship Program (SEAP) for high school students and the Navy 
Research Enterprise Internship Program (NREIP) for college and graduate 
students. Both programs offer summer internships that allow students to 
perform hands-on research alongside Navy scientists and engineers at 36 
participating laboratories and warfare centers across the country. In 
2015, SEAP funded over 300 high school students for 8-week internships 
and NREIP funded over 425 undergraduate and 125 graduate students for 
10-week internships. These programs offer invaluable real-world STEM 
research experience as mentors provide meaningful work that fosters the 
interns' interest in working for the DON upon graduation.
    The Naval Research Laboratories and Navy Warfare Centers also 
benefit from post doctoral candidate fellowships offered through the 
National Research Council and American Society of Engineering Education 
(NRC and ASEE). These one-to-two-year appointments allow recent Ph.D. 
graduates invaluable opportunities to perform research at our 
laboratories. These opportunities, coupled with the direct hire 
authority enacted by Congress for advanced degrees, will enable us to 
hire researchers with skills and interests that align with DON needs.
    This continuum of programs was strategically designed to attract, 
recruit, and develop students from across the education spectrum. We 
must remain pro-active in these efforts. Therefore, we continually 
assess the performance of each of these programs and the quality of the 
students we are attracting, to ensure the programs and students meet 
the current and long-term STEM workforce requirements.
    Mr. Castro. How does the Air Force STEM Outreach Office work to 
attract more minorities and women into STEM?
    Dr. Walker. In FY15, targeted programs impacted over 11,000 
children from underrepresented schools. Also in FY15, we impacted over 
1,700 female students through programs specifically targeting this 
audience. The Air Force conducts 2000+ STEM outreach events per year, 
leveraging local, state and federal organizations to reach 200,000 
students and teachers across the United States, mostly concentrated 
around 29 Air Force installations.
    In FY16, our base-level K-12 STEM programs have planned over 180 
activities targeted to underrepresented groups. We have also undertaken 
an initiative to find more ways to coordinate with the AF Diversity 
Office to enhance and increase the effectiveness of the programs 
directed at underrepresented groups. We recently supported the POTUS-
sponsored program, My Brothers' Keeper, Week at the Labs, in which our 
Air Force locations opened our doors to minority children for half-day 
programs of tours and events.
    Mr. Castro. What additional paths do you see aside from ROTC 
programs, to recruit young men and women into STEM jobs within the 
Federal Government?
    Dr. Walker. One path the Air Force uses is the scholarship for 
service Science, Mathematics And Research for Transformation (SMART) 
Program. Over the past 9 years, the Air Force has sponsored 640 
scholars in the SMART Program. There are 337 individuals that have 
completed their service commitment and 87 percent of them continue to 
work for the Air Force. The Air Force also has numerous internship 
programs that are used to attract and recruit STEM talent to an Air 
Force career.
    Mr. Castro. What additional paths do you see aside from ROTC 
programs, to recruit young men and women into STEM jobs within the 
Federal Government?
    Dr. Prabhakar. The Department has multiple avenues available to 
engage with young men and women interested in working with DOD in STEM-
related positions. The Science, Mathematics And Research for 
Transformation (SMART) Scholarship for Service Program provides 
students pursuing an undergraduate or graduate degree in STEM 
disciplines the opportunity to receive a full scholarship and 
employment by the Department upon degree completion. In addition, the 
Department participates in the Federal-wide Pathways Program, which 
provides opportunities for internships, recent-graduate hiring, and the 
Presidential Management Fellows (PMF) program. All three opportunities 
provide mechanisms for students to engage with the DOD in STEM-related 
positions that can lead to hiring.
    The DOD Labs also have their own programs that may lead to hiring. 
For example, both the Army and the Navy labs have a science and 
engineering apprentice program that may lead to a formal hiring 
arrangement. In addition, the Labs are able to leverage their 
flexibilities as Science and Technology Reinvention Laboratories 
(STRLs) to hire through their specific authorities such as Direct Hire 
Authority, non-competitive transition to full-time positions, and 
others. In addition to the DOD Labs workforce initiatives, the Human 
Capital Initiatives (HCI) office within OUSD(AT&L) focuses specifically 
on the acquisition workforce. Broader workforce initiatives take place 
in OUSD(P&R).
    Finally, for recruitment, the DOD participates in multiple career 
fairs, college campus recruiting events, and mentorship programs. All 
of these activities are opportunities for the Department to promote 
STEM-related positions and directly engage with interested students.

                                  <all>
</pre></body></html>
